   United States Department of Agriculture
   Office of Inspector General




Follow Up on APHIS' Implementation of the
Select Agent or Toxin Regulations




                                             Audit Report 33701-0001-AT
                                             November 2012
                           United States Department of Agriculture
                                  Office of Inspector General
                                   Washington, D.C. 20250




DATE:          November 6, 2012

AUDIT
NUMBER:        33701-0001-AT

TO:            Kevin Shea
               Acting Administrator
               Animal and Plant Health Inspection Service

ATTN:          Joanne L. Munno
               Deputy Administrator
               Marketing Regulatory Program Business Services

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       Follow Up on APHIS’ Implementation of the Select Agent or Toxin Regulations


This report presents the results of the subject audit. Your written response to the official draft,
dated September 28, 2012, is included in its entirety at the end of the report. Excerpts from your
response and the Office of Inspector General’s (OIG) position are incorporated in the relevant
Findings and Recommendations sections of the report. Based on your responses, we were able
to accept management decision on Recommendations 4, 6, and 12. However, we are unable to
accept management decision on Recommendations 1, 2, 3, 5, 7, 8, 9, 10, and 11. Documentation
or action needed to reach management decision for these recommendations is described under
the relevant OIG Position sections.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days,
describing the corrective actions taken or planned, and timeframes for implementing the
recommendations for which management decisions have not been reached. Please note that the
regulation requires management decision to be reached on all recommendations within 6 months
from report issuance, and final action to be taken within 1 year of each management decision to
prevent being listed in the Department’s annual Performance and Accountability Report. Please
follow your internal agency procedures in forwarding final action correspondence to the Office
of the Chief Financial Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions.
Table of Contents

Executive Summary .................................................................................................1
Background and Objectives ....................................................................................4
Section 1: APHIS Oversight ...................................................................................7
  Finding 1: APHIS Needs to Strengthen Controls Over Critical Areas in the
  Select Agent Program...........................................................................................7
      Recommendation 1 ......................................................................................11
      Recommendation 2 ......................................................................................12
      Recommendation 3 ......................................................................................12
      Recommendation 4 ......................................................................................13
Section 2: Registered Entity Compliance Issues ................................................14
  Finding 2: APHIS Allowed Transfers of Select Agents to Unregistered
  Entities Without Approved Security Plans ......................................................14
      Recommendation 5 ......................................................................................15
  Finding 3: Entities Did Not Adhere to Access Security Requirements ........17
      Recommendation 6 ......................................................................................19
      Recommendation 7 ......................................................................................19
      Recommendation 8 ......................................................................................20
      Recommendation 9 ......................................................................................21
  Finding 4: Persons with Access to Select Agents Did Not Possess Updated
  SRAs .....................................................................................................................22
      Recommendation 10 ....................................................................................23
  Finding 5: Responsible Officials and Employees Lacked Required Biosafety
  and Security Training ........................................................................................24
      Recommendation 11 ....................................................................................25
      Recommendation 12 ....................................................................................26
Scope and Methodology .........................................................................................28
Exhibit A: Summary of SRA Renewal Deficiencies ..........................................30
Abbreviations .........................................................................................................31
Agency’s Response .................................................................................................33
Follow Up on APHIS’ Implementation of the Select Agent or Toxin
Regulations

Executive Summary
After the events of September 11, 2001, the Government took a number of steps to strengthen
homeland security. The Public Health Security and Bioterrorism Preparedness and Response
Act of 20021 (Public Law 107-188, signed June 12, 2002 (hereafter referred to as “the Act”))
included provisions for enhancing controls over dangerous biological agents and toxins. The Act
addressed the lack of authority for the Secretary of Agriculture to regulate possession of
biological agents that, through acts of bioterrorism, could have a devastating impact on the
domestic agricultural economy. With passage of the Act, the Secretary of Agriculture was
required to promulgate regulations to provide for the establishment and enforcement of standards
and procedures governing the possession, use, and transfer of select agents or toxins, including
security measures and controls to limit access to only those individuals that have a legitimate
need to handle or use such agents or toxins. The Animal and Plant Health Inspection Service
(APHIS) was delegated authority to administer the regulations for the Department of
Agriculture.

In prior audits of APHIS’ select agent program,2 we found that APHIS had not established a
consistent and thorough inspection structure. In response to our recommendations, APHIS
established controls to ensure registered entities complied with security regulations, including
enhancing its reviews of entity security plans. In addition, APHIS enhanced its inspection
process by requiring inspectors to observe security procedures to verify compliance with the
security plan and determine whether entities’ controls were in accordance with program
regulations. The primary objective of this audit was to follow up on our prior audits and assess
whether APHIS’ new controls are effectively ensuring that registered entities comply with
regulations governing the possession, use, and transfer of select agents. We selected 7 of
59 entities that were registered to possess or use select agents to assess their compliance with
select agent regulations and determine whether APHIS was effectively overseeing the select
agent program at these entities.

Although APHIS has made progress in establishing controls over the select agent program since
our last audit, we found that APHIS needs to strengthen its internal controls over the critical
program areas related to monitoring the movement of select agents to alternate facilities,
controlling access to select agents, ensuring that individuals handling select agents have up-to-
date security clearances, and ensuring that responsible officials (RO) are adequately trained. Our
audit discovered deficiencies in these critical areas because APHIS did not always (1) ensure
effective monitoring of ongoing activities, (2) fully address identified risks, or (3) ensure
effective communication within the select agent program. We found deficiencies where

1
  Title II, Subtitle B of the Public Health Security and Bioterrorism Preparedness and Response Act of 2002 is cited
as the Agricultural Bioterrorism Protection Act of 2002.
2
  APHIS Evaluation of the Implementation of the Select Agent or Toxin Regulations, Phase I (Audit Report 33601-
0002-AT, dated June 23, 2005) and APHIS Evaluation of the Implementation of the Select Agent or Toxin
Regulations, Phase II (Audit Report 33601-0003-AT, dated January 17, 2006).


                                                                    AUDIT REPORT 33701-0001-AT                     1
inspector training and procedures performed did not always ensure that monitoring inspections
identified program vulnerabilities. APHIS did not have adequate controls to ensure that
legislatively required Department of Justice security risk assessments (SRA) for individuals
possessing or using select agents were up-to-date. Finally, APHIS’ lack of effective internal and
external communication resulted in violations going undetected, such as (1) the transfer of select
agents causing anthrax (Bacillus anthracis)3 and the plague (Yersinia pestis)4 to an unregistered
facility and (2) access granted to personnel with expired security risk assessments to areas
containing select agents at four of the seven entities we reviewed. These communication
breakdowns increased the risk that select agents could be accessed by unauthorized personnel
and potentially misused.

Finally, at five of the seven entities ROs or alternate ROs did not have documentation of their
required biosafety or biocontainment and security training. APHIS did not require ROs or
alternate ROs to have specific training related to their select agent program oversight
responsibilities. Without appropriate training, ROs or alternate ROs could be providing incorrect
or incomplete information to their employees, thus heightening the risk to the health of persons,
plants, or animals. Additionally, all seven entities that we reviewed either did not ensure that all
employees received the required training or did not maintain complete training records for their
employees.

Recommendation Summary
To strengthen internal controls for monitoring program activities, addressing identified risks, and
effectively communicating information about the select agent program, we recommend that
APHIS revise inspection procedures to include steps for sampling and reviewing access logs;
establish agency security policies and procedures for handling requests from registered entities to
transfer select agents, under special circumstances; provide guidance to its registered entities to
clarify the restricted access requirements; notify each registered entity to clarify that the RO must
ensure that SRA renewals are timely, prior to expiration; and develop and conduct training for all
ROs and alternate ROs that provides the knowledge necessary to effectively oversee the select
agent program.

Agency Response
In its September 28, 2012, response to the official draft report, APHIS agreed with 3 of the
12 recommendations. Although APHIS did not agree with two of the recommendations, it
proposed corrective actions that address the concerns identified by the Office of Inspector
General (OIG). Excerpts from the response and OIG’s position have been incorporated into the
relevant sections of the report. The written response is included in its entirety at the end of the
report.



3
  Bacillus anthracis is the bacterium that causes anthrax. It is considered one of the most serious bioterrorism
threats.
4
  Yersinia pestis is the bacterium that causes the plague. It is considered one of the most serious bioterrorism
threats.


2     AUDIT REPORT 33701-0001-AT
OIG Position
The agency in their response expressed concerns that certain language in the report was unduly
alarming and suggested that it should be revised or removed from the audit report. In
considering management concerns, we revised certain language in the report. Further, we accept
APHIS’ management decision for Recommendations 4, 6, and 12, however for recommendations
1, 2, 3, 5, 7, 8, 9, 10, and 11, we were unable to reach management decision. We have provided
our comments and a description of actions needed to reach management decision for each of
these recommendations in the OIG Position section of the report.




                                                       AUDIT REPORT 33701-0001-AT           3
Background and Objectives

Background
Biological agents and toxins that pose a severe risk to plant and animal health or to animal and
plant products, such as bovine spongiform encephalopathy (BSE),5 are regulated by the
Department of Agriculture (USDA) as “select agents or toxins” (hereafter referred to as “select
agents”). The Agricultural Bioterrorism Protection Act of 20026 (hereafter referred to as “the
Act”) gives the USDA authority to designate certain plant and animal biological agents and
toxins as select agents by listing them in the Federal Register on a biennial basis.

The Act also requires that the Secretary of Health and Human Services (HHS) establish and
maintain a list of select agents that have the potential to pose a severe threat to public health and
safety (public health being focused on humans instead of plants and animals). Where HHS and
USDA list some of the same agents, known as overlap agents, 7 the two departments coordinate.8
In USDA, the Animal and Plant Health Inspection Service (APHIS) enforces the Act, while in
HHS, the Centers for Disease Control and Prevention (CDC) enforces the Act. Further, the Act
requires that a national database be established to identify the names of persons, location, and
identification of the select agents that are possessed, used, or transferred by the registered
entities. To accomplish this, CDC established and APHIS uses the National Select Agent
Registry (NSAR) database.

APHIS and CDC regulate select agents by establishing and enforcing:

    ·    Safety procedures for the transfer of listed agents, including measures to ensure proper
         training and appropriate skills to handle select agents, and proper laboratory facilities to
         contain and dispose of select agents;
    ·    Security measures to prevent access to select agents for use in domestic or international
         terrorism or for any other criminal purpose; and
    ·    Procedures to protect public safety, animal and plant health, as well as animal and plant
         products, in the event of a transfer or potential transfer of select agents in violation of the
         established safety procedures or established safeguards and security measures.

All entities that possess, use, or transfer these select agents must register with the appropriate
regulatory agency, APHIS or CDC, depending on the type of select agents the entity possesses.
Entities with overlap agents may choose to register with either APHIS or CDC, but registration


5
  BSE, widely referred to as "mad cow disease," is a chronic degenerative disease affecting the central nervous
system of cattle. All infected cattle die. There is neither any treatment nor a vaccine to prevent the disease.
6
  Title II, Subtitle B of the Public Health Security and Bioterrorism Preparedness and Response Act of 2002 is cited
as the Agricultural Bioterrorism Protection Act of 2002.
7
  Overlap agents are those agents that may affect both animal and human health.
8
  For select agents that are designated as overlap agents, CDC and APHIS are to coordinate to minimize conflicts
between regulations and program activities and administrative burdens, subject to regulation by both APHIS and
CDC.


4       AUDIT REPORT 33701-0001-AT
with both agencies is not required. Currently,9 50 entities—including government agencies,
academic institutions, corporations, associations, and other legal entities—are registered with
APHIS to possess, use, and transfer select agents. An entity may have multiple facilities under
its purview; however, each facility is, by itself, a separate registered entity. Registered entities
are defined as facilities at one physical location (such as a room, a building, or a group of
buildings) where the responsible official (RO) will be able to perform all the responsibilities of
the Select Agent Program.10

Each entity must designate a RO who is responsible for day-to-day program administration and
compliance. The entity may also designate one or more alternate ROs, who may act in the
absence of the RO. As part of the registration process, the entities’ RO, the alternate RO, the
entity, and the individual who owns or controls the entity,11 must undergo a security risk
assessment (SRA) by the Criminal Justice Information Service (CJIS) Division of the
Department of Justice.12 Moreover, all individuals who handle or use select agents must undergo
an SRA by the CJIS Division.

A Federal working group13 established to identify and remedy potential gaps in biosecurity
recommended that individuals who handle select agents undergo a renewed SRA every 3 years,
as opposed to the previous timeline of every 5 years.14 APHIS and CDC accepted this
recommendation and, as of June 1, 2011, began requiring individuals to have their SRA renewed
every 3 years.

When an entity registers with APHIS, it submits a site-specific security plan detailing the
physical security of the select agents and the laboratories that house them.15 In addition, the
entity submits biosafety, biocontainment,16 and incident response plans.17 APHIS performs a

9
  As of May 2012.
10
   Registration is location specific; therefore, APHIS would classify a single corporation that owns three different
facilities at distant locations handling select agents as three separate entities.
11
   Owning or controlling individuals undergo an SRA when applicable.
12
   The SRA is the method used by the CJIS to evaluate an individual's suitability to access select agents.
Specifically, to determine whether the individual meets any of the statutory restrictors that would restrict them to
access to select agents.
13
   The working group includes the Secretaries of Defense, HHS, State, Agriculture, Transportation, and Homeland
Security, or their designees.
14
   Executive Order 13486, Strengthening Laboratory Biosecurity in the United States, January 2009, established the
working group.
15
   7 Code of Federal Regulations (CFR) 331.11(c)(d) and 9 CFR 121.11(c)(d) require that the security plan contain,
among other things, provisions for securing the area (e.g., card access, locks); provisions for controlling access to
the select agents; provisions for routine cleaning, maintenance, and repairs; provisions for ensuring that all
individuals with access understand and comply with the security procedures; and allow access only to individuals
with access approval from APHIS.
16
   7 CFR 331.12(a)(b) and 9 CFR 121.12(a)(b) require the entity to develop and implement biosafety and/or
biocontaiment plans detailing the procedures to ensure biosafety and containment. The procedures must be
sufficient to contain the select agent (e.g., physical structure and features of the entity, and operational and
procedural safeguards).
17
   7 CFR 331.14(a)(b) and 9 CFR 121.14(a)(b) require the entity to develop and implement an incident response
plan that details the entity’s response procedures for events such as theft, loss, or release of select agents; security
breaches; severe weather and other natural disasters; suspicious packages; and emergencies such as fire, gas leak,
power outage, etc.


                                                                      AUDIT REPORT 33701-0001-AT                       5
detailed review of the security, biosafety, biocontainment, and incident response plans and
inspects the entity’s facility and laboratories where select agents will be used or stored. After the
initial registration is approved, APHIS performs a detailed inspection every 3 years as part of its
registration renewal process. It follows up with annual compliance reviews that target certain
issues, such as annual recordkeeping requirements, requirements to conduct drills and exercises,
and accuracy of inventory records, based on the history or concerns with the entity. Compliance
inspections are normally unannounced, and are designed to close the gap between the 3-year
inspection cycles.

APHIS has 10 staff from Veterinary Services and 5 staff from Plant Protection and
Quarantine (PPQ) assigned to the select agent program. Four veterinary medical officers are
primarily responsible for overseeing registered entities. The PPQ director is responsible for
overseeing entities that possess only plant-related select agents.

In July 2010, the President issued an executive order creating a tiered approach to classifying
select agents, identifying a subset of select agents as Tier 1 agents, which are those with the
greatest risk “of deliberate misuse with most significant potential for mass casualties or
devastating effects to the economy, critical infrastructure, or public confidence.”18 For Tier 1
agents, APHIS must revise its regulations to establish security standards specific to those agents.
APHIS published the proposed list of Tier 1 agents on October 3, 2011. The executive order
also created the Federal Experts Security Advisory Panel (FESAP) to make recommendations
regarding biosecurity measures for the select agent program. FESAP’s recommendations will be
addressed during the next round of regulation revisions and FESAP will remain active through
2014.

Our 2005 review of the select agent program identified significant issues with APHIS’
implementation of controls to prevent unauthorized access to select agents.19 For example,
APHIS had not established policies and procedures to ensure consistent and thorough security
inspections. Our subsequent review of the program in 2006 confirmed the initial findings.20
Since our 2006 review, APHIS has implemented several changes to program operations in
response to issues identified in prior audits, including implementing a national database of select
agents, training those conducting inspections, and creating a series of checklists for conducting
inspections.21

Objective
The objective of this audit was to follow up on our prior audits and assess whether APHIS’ new
controls were effectively ensuring that registered entities comply with regulations governing the
possession, use, and transfer of select agents.

18
   Executive Order 13546, Optimizing the Security of Biological Select Agents and Toxins in the United States,
Section 4, July 2, 2010.
19
   APHIS Evaluation of the Implementation of the Select Agent or Toxin Regulations, Phase I (33601-0002-AT,
 June 23, 2005).
20
   APHIS Evaluation of the Implementation of the Select Agent or Toxin Regulations, Phase II (33601-0003-AT,
 January 17, 2006).
21
   Management decision was achieved and the agency has stated that it completed final action on all previous audit
 recommendations for our 2005 and 2006 reviews.


6     AUDIT REPORT 33701-0001-AT
Section 1: APHIS Oversight

Finding 1: APHIS Needs to Strengthen Controls Over Critical Areas in the
Select Agent Program
APHIS needs to strengthen the internal controls related to moving select agents to alternate
facilities, controlling access to select agents, ensuring that individuals handling select agents
have up-to-date security clearances, and ensuring that ROs are adequately trained. These
internal control deficiencies occurred because APHIS did not always (1) ensure effective
monitoring of ongoing activities, (2) fully address identified risks, or (3) ensure effective
communication within the select agent program. As a result, there is increased risk of the misuse
of select agents and the potential for serious security violations going undetected.

The Office of Management and Budget Circular A-123, “Management’s Responsibility for
Internal Control,” states that management has a fundamental responsibility to develop and
maintain effective internal control. The Government Accountability Office Standards for
Internal Control in the Federal Government22 established five goals for internal controls. The
first goal calls for Government agencies to establish a control environment that sets a “positive
and supportive attitude toward internal control and conscientious management.” These goals
also include monitoring program activities; addressing identified risks; effectively
communicating information; establishing policies, procedures, techniques, and mechanisms that
enforce management’s directions.

Since our prior audits, APHIS has improved its program administration. Previously, we found
that APHIS had not established a consistent and thorough inspection structure. In response to
our recommendations, APHIS established controls to ensure entities complied with security
regulations, including enhancing its reviews of entity security plans. In addition, APHIS
enhanced its inspection process by requiring inspectors to observe security procedures to verify
compliance with the security plan and determine whether entities’ controls accord with program
regulations. While APHIS has made progress, the executive and regulatory authorities continue
to emphasize enhancing security over select agents. In July 2010, an executive order23 instructed
APHIS and CDC to increase coordination, security, and oversight for agents and toxins with the
highest risk, such as those causing anthrax (Bacillus anthracis)24 and the plague
(Yersinia pestis).25 We determined that continued efforts are needed to strengthen APHIS’
internal control environment in the areas of monitoring, risk assessment, and communication to
further enhance security for these and other high risk pathogens.



22
   GAO/AIMD-00-21.3.1, Standards for Internal Control in the Federal Government, dated November 1999, and
OMB Circular A-123, Management’s Responsibility for Internal Control, dated December 2004.
23
   Executive Order 13546, Optimizing the Security of Biological Select Agents and Toxins in the United States,
July 2, 2010.
24
   Bacillus anthracis is the bacterium that causes anthrax. It is considered one of the most serious bioterrorism
threats.
25
   Yersinia pestis is the bacterium that causes the plague. It is considered one of the most serious bioterrorism
threats.


                                                                    AUDIT REPORT 33701-0001-AT                      7
Monitoring Ongoing Activities

APHIS has established monitoring procedures and security checklists and conducted inspector
training to determine whether the programs’ legislative requirements are met. However, we
found that the inspector training and procedures performed did not always ensure that monitoring
inspections identified program vulnerabilities. We found that APHIS’ inspection procedures for
monitoring registered entities did not include specific steps to review access logs to ensure that
only authorized individuals were allowed access to areas with select agents. The inspection
procedures also did not include steps to identify individuals whose SRAs had expired. Finally,
the inspection procedures did not include steps to ensure consistency in reviewing whether
entities were complying with training requirements.

For instance, while legislation clearly identifies unauthorized access to select agents as a major
risk, APHIS’ checklist/procedures for inspecting physical security did not require its inspectors
to check entities’ access logs to ensure that unauthorized individuals are not allowed in areas
where select agents are stored or used. The security review checklist directs inspectors to
determine whether entities “allow access only to individuals with access approval from the HHS
secretary or APHIS administrator.” APHIS’ training material for inspectors addresses onsite
observations of individuals accessing areas where select agents are stored or used during the
inspection, but it does not instruct inspectors to include an examination of previous log book
entries or other documented entries, such as electronic keycard access records. Three of seven
entities reviewed allowed unauthorized access into areas where select agents were used or stored
(see Finding 3). However, APHIS’ inspections did not identify these conditions because
inspection procedures did not include steps to review access logs or access privileges.26 APHIS
officials told us that methods for access log reviews should have been covered during the
inspectors’ training and that the issue should be emphasized in future training. We concluded
that inspection checklists should also include steps to review access logs and access privileges.

APHIS’ inspections also did not identify other deficiencies, such as individuals with expired
SRAs having access to select agents (see Finding 4), and entities that did not perform required
security training or adequately document it (see Finding 5). In regard to expired SRAs, the
APHIS inspection guidance does not include steps to identify individuals with expired SRAs. As
for training deficiencies, officials said that their intent was for inspectors to review all training
records for a given period. However, the inspection guidance does not specify this requirement,
nor does it instruct inspectors how to assess training records. 27 The checklist also does not
require inspectors to document the time period covered by records reviewed during their
inspection. Without documentation of the time period, APHIS is hampered in tracking and
evaluating registered entities’ progress in correcting identified inspection deficiencies. Also, in
the event of a security incident, APHIS would be unable to definitively state whether an
inspection covered a particular time period.

26
   Access privilege is the ability to gain access to areas where select agents are used or stored. For example,
individuals who have been granted keycard access to areas where select agents are used or stored have access
privileges.
27
   The inspection checklist states that training records should include the names, dates, descriptions, and means used
to verify employees understood the training. The checklist does not indicate how many records should be reviewed
or what constitutes adequate documentation of employee understanding.


8     AUDIT REPORT 33701-0001-AT
Fully Addressing Identified Risks

One of the most significant risks in the select agent program is that an individual might gain
access to a select agent and deliberately misuse it in a terrorist act.28 A key control to mitigate
this risk is included in the original legislation creating the select agent program, and requires that
individuals seeking to possess or use select agents must, by law, be vetted by the Department of
Justice. This requirement and process is to ensure that restricted persons are not allowed to work
with select agents. Every 3 years the SRA for an individual must be renewed. We found that
APHIS was not ensuring that registered entities were keeping up-to-date SRAs for individuals
possessing or using select agents. Even though entities’ ROs are required to ensure that the
SRAs are up-to-date, APHIS was unaware that SRAs were being allowed to expire, due to
inaccurate information contained in the NSAR database.29 During our review at 7 registered
entities, we found that SRA approval for 11 individuals at 4 entities lapsed for periods of time
ranging from 14 to 478 days (see Finding 4).

APHIS does not have an effective automated system to track the SRA renewals. Instead, the
agency manually compares information from the CJIS database, maintained by the Department
of Justice, to data that were manually entered into the NSAR database. This manual process is
more prone to errors because it relies on both manual input and comparison of data. An APHIS
official told us that it is the RO’s responsibility to ensure that all individuals with access to select
agents have an approved SRA. However, APHIS has the responsibility to monitor the program
and ensure that the registered entities are complying with select agent laws and regulations.

Effective Communication within the Select Agent Program

APHIS’ lack of effective internal and external communication resulted in violations going
undetected, such as the transfer of select agents to an unregistered facility and access granted to
unauthorized personnel to areas containing select agents, due to expired security clearances.
These communication breakdowns increased the risk that select agents could be released,
misused, or diverted for terrorism. We found APHIS permitted transfers of select agents to
unregistered entities due, in part, to the lack of communication about the entity’s known security
plan deficiencies. This occurred when the APHIS Plant Protection and Quarantine (PPQ) official
approving the transfer did not communicate with the APHIS veterinary medical officer, who was
responsible for overseeing the entity before signing the transfer approval document (see Finding
2).



28
   In a November 2, 2010, report, Recommendations Concerning the Select Agent Program (revised 12/20/2010 and
1/10/2011), the FESAP recommended enhancing the SRA process for the select agent program to better assess
circumstances that would disqualify an individual from accessing or using select agents. In its Report of the
Working Group on Strengthening the Biosecurity of the United States, dated October 1, 2009, a Federal working
group; which includes the Secretaries of Defense, HHS, State, Agriculture, Transportation, and Homeland Security,
or their designees; found that restricting select agent access to only those who have passed an SRA is critical for
strengthening the United States’ biosecurity. The group recommended that those with access to select agents should
meet high standards of reliability, which would prevent misuse by individuals with “nefarious intent.”
29
   NSAR is the database that APHIS and CDC use to input data regarding the select agent program; it includes the
information about individuals that are authorized to use select agents.


                                                                   AUDIT REPORT 33701-0001-AT                     9
We also found that SRAs were not up-to-date at four of the entities because the entities’ ROs
expected APHIS to provide them notification when the renewals were due. However, the
renewal notifications were not always timely sent by APHIS because the errors and omissions in
its list prevented APHIS from timely identifying individuals whose SRAs were expiring (see
Finding 4).

Communication that provides accurate and reliable information is essential to ensure that those
tasked with administering the select agent program at all levels understand their responsibilities
and to ensure that decisions and actions affecting the program provide the best means of
preventing unnecessary risks.

As noted in Finding 2, the branch chief of select agents for PPQ approved the transfer of the
select agents to an unregistered entity, and not the veterinary medical officer assigned
responsibility for the entity.30 The branch chief obtained CDC’s concurrence on the transfer,
which was required because Bacillus anthracis (anthrax) is an overlap agent that affects both
humans and animals and Yersinia pestis (plague) is a CDC select agent that may affect human
health. Although the assigned veterinary medical officer had identified 27 deficiencies in the
security and incident response plans (i.e., the incident response plan did not address how the
facility would respond to events such as explosions, gas leaks, power outages, bomb threats, and
suspicious packages), at the time the transfer was approved, the branch chief and CDC approved
the transfer to the facility because they believed the facility was safe and secure for storing the
select agents. However, the unregistered entity did not address these issues until several months
after the transfer took place.

In Finding 4, an issue involved incorrect external communication provided to registered entities,
which caused confusion regarding the responsibilities for monitoring and updating SRAs. We
found that SRAs for all authorized persons were not up-to-date at four of the entities because
APHIS was inconsistent in sending renewal notifications and did not adequately describe entity
responsibilities in guidance posted on its website. APHIS and CDC maintain a NSAR website
that provides information to registered entities to help them manage their select agents. Up until
May 2011, under the frequently asked questions section, the site stated that APHIS or CDC will
provide the RO with a list of individuals who need renewed SRAs. However, according to the
program legislation, entities hold the responsibility for ensuring that SRAs are current—not
APHIS. This web posting led ROs to believe that they did not need to take actions to monitor
their employees’ SRAs, because APHIS would do that for them. Since APHIS does not have an
effective system for monitoring SRA expirations itself, the notices that it sent to ROs were often
unreliable, compounding the problem.

An APHIS official told us that it is ultimately the entity’s responsibility to ensure that all
individuals with access to select agents have an approved SRA. In May 2011, APHIS revised its
webpage to include a note stating that, “It is the [RO’s] responsibility to ensure all individuals
listed on the entity’s registration are SRA approved.” However, we believe that this clarification

30
  Within APHIS’ select agent program, there are four veterinary medical officers, each of whom is assigned
responsibility for overseeing designated registered entities possessing and using select agents affecting animals. For
entities possessing only select agents affecting plants, the branch chief of select agents for PPQ would have
oversight responsibility.


10      AUDIT REPORT 33701-0001-AT
does not ensure that all registered entities are fully aware of their responsibilities. Many entities
may not know that the site has been corrected and, since APHIS is still sending out notices, they
may continue to believe that APHIS is tracking SRAs for them.

In summary, since our last audit, APHIS has established monitoring procedures and security
checklists and conducted inspector training, which were all designed to ensure legislative
requirements are met. However, the agency needs to improve ongoing monitoring procedures to
ensure that access and movement of select agents is done in a secure environment. APHIS also
needs to establish controls to ensure program risks are mitigated by monitoring whether security
risk assessments are performed as required. Finally, the agency needs to provide for good
communication throughout APHIS and with registered entities to ensure that decisions and
actions affecting the program provide the best means of preventing unnecessary risks.

Recommendation 1
Revise inspection procedures to include steps for sampling and reviewing access logs, access
privileges, and electronic entry records (if available) to ensure entities are adhering to restricted
access requirements, including log book documentation requirements.

Agency Response
In its September 28, 2012, response APHIS stated:

       APHIS does not concur with the recommendation. APHIS’ current inspection procedures
       include sampling and reviewing access logs, access privileges, and electronic entry
       records during renewal inspections as well as annual compliance reviews. Select agent
       inspector training provided by APHIS specifically addresses the process to examine
       records and to compare those examinations with the list of authorized personnel.
       However, APHIS will review the inspection checklists to determine if more specificity is
       necessary. This review will be completed by December 3, 2012.

OIG Position
We are unable to reach management decision for this recommendation. In its response, APHIS
did not provide evidence to support that its inspection procedures included sampling and
reviewing access logs, access privileges, and electronic entry records. APHIS did not provide
evidence showing that its inspector training specifically addressed the process to examine those
records and compare those examinations with the list of authorized personnel. During our audit,
we identified instances where unauthorized individuals were provided access, but such instances
were not detected during APHIS’ inspections. APHIS’s inspection checklists, which had been
provided to OIG during the audit, did not provide specific procedures for reviewing access logs,
privileges, or electronic entry records. Additionally, the inspector training material provided to
OIG stated that inspectors should observe individuals entering secure areas, but did not instruct
the inspectors to examine previous log book entries or other documented entries such as
electronic keycard access records. To reach management decision, APHIS should include steps
for sampling and reviewing access logs, access privileges, and electronic entry records in its


                                                          AUDIT REPORT 33701-0001-AT                11
checklists to ensure that entities are adhering to restricted access requirements, including
requirements for log book documentation.

Recommendation 2
Revise the checklists and guidance used by inspectors to include (1) steps to identify evidence of
required training, including what documents are needed to verify an individual’s understanding
of the training, and (2) the scope of an inspector’s training documentation review to identify the
period of time for which training records were reviewed.

Agency Response
In its September 28, 2012, response APHIS stated:

       APHIS does not concur with the recommendation. Select agent inspector training
       provided by APHIS specifically addresses the process to examine an entity’s records to
       ensure that the training requirements are fulfilled. APHIS inspectors review training
       records typically from the date of the last inspection forward by both APHIS and ***
       CDC on-site inspectors. APHIS will review the inspection checklists to determine if
       more specificity is necessary. This review will be completed by December 3, 2012.

OIG Position
We are unable to reach management decision for this recommendation. During our audit, we
identified deficiencies in the training records maintained at each of the seven entities we visited.
Further, the training materials provided to OIG during the audit did not identify the scope of
review performed or what documents the inspectors reviewed to verify that individuals
understood the training. To reach management decision, APHIS should (1) revise its inspection
checklist to record the scope of the review to identify the period of time for which training
records were reviewed, and (2) revise the guidance used by inspectors to identify what
documents are necessary to verify an individual’s understanding of training; or provide details of
how its training specifically addresses the process to examine an entity’s records, including
identifying what documents are required to be reviewed by inspectors to verify an individual’s
understanding of the training, to ensure that they training requirements are fulfilled.

Recommendation 3
Develop and implement procedures to ensure that all affected parties receive communication of
relevant information regarding significant decisions, such as the approval of a transfer of a select
agent, before such determinations are made.

Agency Response
In its September 28, 2012, response APHIS stated:




12     AUDIT REPORT 33701-0001-AT
        APHIS does not concur with this recommendation. APHIS has a Standard Operating
        Procedure [SOP] for transfers, titled “Procedure for Processing Request to Transfer
        Select Agents and Toxins, APHIS/CDC Form 2,” which was approved January 16, 2011.
        This document addresses how requests for transfers are communicated within APHIS and
        CDC. Part of the transfer process includes reviewing whether APHIS movement permits
        are valid for the recipient and sender of the select agent. If the transfer includes a CDC-
        only select agent or toxin, CDC must approve the request. In the transfer case cited in the
        OIG report, all procedures were followed correctly.

OIG Position
We are unable to reach management decision for this recommendation. The SOP cited states
that if the recipient entity is not registered to possess the select agent, do not approve the transfer.
In the case cited by OIG, the recipient entity did not possess a certificate of registration. Further,
the SOP cited addresses communications between APHIS and CDC, not communications that
occur internally within APHIS, where we cited the discrepancy. To reach management decision,
APHIS should develop and implement procedures to ensure that all affected parties (both within
APHIS and outside of APHIS) receive communication of relevant information regarding
significant decisions, such as the approval of a transfer of a select agent, before such a
determination is made.

Recommendation 4
Notify each registered entity to clarify that its RO must ensure that SRA renewals are done
timely and not allowed to expire.

Agency Response
In its September 28, 2012, response APHIS stated:

        APHIS does not concur with the recommendation. APHIS notifies the *** RO of the ***
        SRA expiration dates as a courtesy, and it is the ROs’ responsibility to ensure that SRAs
        are renewed on time. However, the Federal Select Agent Program (FSAP) will develop a
        guidance document for ROs which will remind ROs that it is their responsibility to see
        that employee SRAs are renewed in a timely fashion. This document will be completed
        by December 3, 2012.

OIG Position
Although APHIS does not agree with this recommendation, its proposed corrective action to
develop guidance for ROs to remind them of their responsibility to see that SRAs are renewed
timely is sufficient to reach management decision. Therefore, we accept management decision
for this recommendation.




                                                           AUDIT REPORT 33701-0001-AT                13
Section 2: Registered Entity Compliance Issues

Finding 2: APHIS Allowed Transfers of Select Agents to Unregistered
Entities Without Approved Security Plans
APHIS permitted select agent transfers to two unregistered entities that had either not yet been
inspected or where inspections had revealed deficiencies in the entity’s security or incident
response plans.31 In both cases, a registered entity was relocating to a new facility that was not
yet approved for the select agent program. APHIS officials explained that this occurred because
the registration process for an entity can at times be lengthy if the entity has areas in the facility
that are not yet complete and APHIS did not foresee circumstances where select agents might
need to be transferred to a new facility owned by a registered entity before the new facility
became fully registered. Therefore, APHIS had not established written policies and procedures
to identify under what special circumstances, such as relocating to a new facility or temporarily
transferring select agents to another location that is not registered while the entity makes
emergency repairs to existing facilities, an unregistered entity may be allowed to store select
agents. Because APHIS did not have assurance that the new facilities met safety and security
requirements, the risk of theft, loss, or release of select agents increased.

Program regulations state that select agents may only be transferred to registered individuals or
entities.32 In order to transfer select agents, the entity receiving the agents must submit a request
form providing the names and quantities of the select agents or toxins being transferred, as well
as the sender’s name, address, and telephone number. APHIS evaluates the request and
determines whether it will allow the transfer.

APHIS authorized two entities to transfer their inventories—which included Bacillus anthracis,
Yersinia pestis, and BSE—to unregistered facilities that had submitted security and incident
response plans, but had not yet received approval for the plans. We did note that in both cases,
APHIS authorized only the storage of select agents in the unregistered facilities, but not their
use.

In the first case, APHIS had identified 27 issues in the entity’s incident response and security
plans that needed correction. For instance, the incident response plan did not address how the
facility would respond to events such as explosions, gas leaks, power outages, bomb threats, and
suspicious packages.33 However, APHIS did not communicate these deficiencies to the entity




31
   An entity (corporation, university, or other) may have multiple facilities under its purview; however, each facility
is, by itself, a separate registered entity.
32
   7 CFR 331.16, 9 CFR 121.16, and 42 CFR 73.16.
33
   Regulations require that entities have an incident response plan in place that describes an entity’s response
procedures for events such as bomb threats, suspicious packages, and emergencies – such as fires, gas leaks,
explosions, and power outages.


14      AUDIT REPORT 33701-0001-AT
until 2 months after the select agents were transferred.34 The entity eventually resolved the
issues, and APHIS approved the registration 7 months after the agents were transferred there. 35

In the second case, the entity’s RO requested, on November 26, 2008, that APHIS allow the
transfer of BSE to the new facility prior to registration because the lease at the old facility was
expiring at the end of 2008. APHIS approved the transfer on December 2, 2008—but had yet to
perform the inspection of the new facility. Additionally, APHIS did not require the entity to
complete a transfer request form. Given the risks that select agents pose to human, animal, and
plant health, APHIS should take steps to ensure the transfers are made only to entities that have
met the safety and security requirements established in the regulations.

Overall, APHIS does not have written policies and procedures in place to allow the transfer of
select agents under special circumstances. In the two cases we found, APHIS required one entity
to submit a transfer request form, while instructing the other entity that a transfer request form
was not required. This illustrates the need for written, formal guidance on the subject. APHIS
officials acknowledged the need for policies covering select agent transfers made under special
circumstances. To address this issue, we understand that APHIS is working with the CDC to
develop formal procedures to allow either a temporary registration or a partial registration, such
as authorizing an entity only to store a select agent in a designated room.

Recommendation 5
Establish policies and procedures for handling requests from registered entities to transfer select
agents, under special circumstances, such as when an entity must relocate to facilities that are not
registered with the select agent program.

Agency Response
In its September 28, 2012, response APHIS stated:

         APHIS concurs with this recommendation. The FSAP will develop a section of the
         registration form for entities to register for storage only. FSAP will also develop
         guidance for inspectors and entities on the requirements for such facilities. These actions
         will be completed and implemented by September 30, 2013.

OIG Position
We are unable to reach management decision for this recommendation. Although we agree with
APHIS’ proposal to develop a section of the registration form for entities to register for storage
only and develop guidance for inspectors and entities on the requirements for such facilities,
APHIS does not explain how this proposal relates to the transfer of select agents, under special
circumstances, to an unregistered facility. To reach management decision, APHIS needs to
34
   The entity transferred the select agents and toxins to the new facility on February 27, 2008; however, APHIS did
not notify the entity of the deficiencies until April 17, 2008.
35
   APHIS authorized the transfer of the select agents on February 19, 2008; however, it approved the registration of
the new facility on September 22, 2008.


                                                                   AUDIT REPORT 33701-0001-AT                     15
explain how the registration for storage only relates to the transfer of select agents, under special
circumstances, to an unregistered facility and how the guidance being developed for inspectors
and entities relates to the process.




16     AUDIT REPORT 33701-0001-AT
Finding 3: Entities Did Not Adhere to Access Security Requirements
Three of the seven entities we reviewed allowed unauthorized individuals unescorted access to
areas registered for use or storage of select agents. In addition, one of these three entities did not
maintain a logbook identifying names of unauthorized individuals who accessed areas containing
select agents. This occurred because entities believed that these individuals did not have access
to select agents because APHIS’ guidance did not clearly define what is meant by “access” to
select agents, leading entities to interpret the guidance contrary to APHIS’ intent.36 Although the
unauthorized access instances we found did not involve direct access to select agents, the lack of
compliance with access security requirements increases the risk that unauthorized individuals
could acquire access and potentially misuse select agents.

Individuals accessing select agents must undergo an SRA and be approved by APHIS (hereafter
referred to as “SRA approval”).37 Anyone without SRA approval is considered unauthorized,38
and may not access select agents.39 Registered entities must also maintain information about all
entries into areas containing select agents, including the names, names of escorts (if applicable),
and the dates and times of entry.40

In one case, a company that was registered to work with select agents such as Bacillus anthracis
and Yersinia pestis, allowed an unauthorized individual keycard access to a lab space registered
for select agent use. The person in question was a scientist who worked in the same facility, but
did not have SRA approval. As a result, the unauthorized scientist could enter the space
registered for select agent use at any time.41 Facility officials said that select agents were not in
use in the registered area when the scientist entered, and therefore they did not think this was a
violation of regulations. However, this policy contradicts the company’s security plan, which
states that only SRA-approved persons would have unescorted access to areas where select
agents are used or stored. As a result of our finding, APHIS officials conducted a review of the
company and determined that it was in violation of regulations.

The two other entities in question gave maintenance workers who were not SRA approved
unescorted access to areas registered for select agent use. In one case, a company, which works
with highly pathogenic avian influenza,42 allowed maintenance workers key card access to the
registered area while the facility was temporarily shut down for maintenance. The RO at the
company stated that, since the facility was shut down and select agents were not in use, he did
not believe that the individuals had access to select agents. However, the company’s security

36
   APHIS officials stated their intent was that no unauthorized individuals (individuals without an approved SRA)
should be allowed into any area registered for select agent use—regardless of whether the agents were present or
not—unless such access is granted for a specific purpose and documented in an APHIS-approved security plan.
37
   7 CFR 331.10(a) and (b) and 9 CFR 121.10(a) and (b).
38
   APHIS/CDC Guidance, Select Agents and Toxins: Security Information Document, dated March 8, 2007.
39
   7 CFR 331.10(a) and 9 CFR 121.10(a).
40
   7 CFR 331.17(a)(4) and 9 CFR 121.17(a)(4).
41
   An entity must identify specific areas where select agents will be used or stored. This may include only one room
of a facility, several rooms, an entire building, or multiple buildings. As such, we use the term “registered area” to
identify those area(s) in which the entity is approved to use or store select agents.
42
   Highly pathogenic avian influenza, also called “bird flu,” is a virus that infects birds and can affect humans. It is
highly contagious among birds and can result in high mortality rates among birds, especially chickens and turkeys.


                                                                     AUDIT REPORT 33701-0001-AT                      17
plan stated that maintenance would be performed by SRA-approved individuals or unapproved
individuals would be escorted. As such, the company was not complying with its own security
plan.

Additionally, the entity maintained a sign-in book at the front door of the facility to document
visitors; however, the book did not identify who accessed areas where select agents were used or
stored, when such access occurred, or the name of that person’s escort. The staff of the facility
did not view this as noncompliance with regulations because they used electronic access records
to document entry into areas containing select agents. However, this system does not capture
when individuals without keycard access accompany individuals into areas where select agents
are used. Thus, the company did not comply with select agent regulations which require a
registered entity to maintain documentation that includes the name, name of escort (if
applicable), date, and time of entry for all entries into spaces containing select agents.

In the second case, the company, which works with BSE, sought and received APHIS’ approval
to allow unescorted access by maintenance workers. However, the company did not revise its
security plan to identify that it would allow unescorted access by workers who did not have SRA
approval, nor to identify the additional security measures that would be implemented during the
time such access was permitted. In addition, APHIS did not require the company to revise its
security plan to reflect that it would allow access by these unauthorized individuals or identify
what additional security measures would be implemented. The revised security plans should
have reflected the circumstances under which access could occur and the additional security
measures that would be in place during that time, such as removing all select agents from the
area, decontaminating the area before access was granted, and restricting access to other areas
registered for select agent use or storage.

In these two latter cases, an APHIS official acknowledged that the security plans should have
been revised prior to allowing unescorted access by maintenance personnel. However, since
there were no select agents present when the maintenance was performed and the one company
had sought permission to allow unescorted individuals in the registered area, the risk relating to
this access was minimal. Although one company sought APHIS’ approval for unescorted
maintenance (for painting) in a September 24, 2010, letter, APHIS’ September 27, 2010,
response approving the request did not inquire as to what maintenance procedures were included
in the company’s security plans or attempt to determine whether a change was needed in the
company’s security plan to address future maintenance needs.

These first two cases occurred because companies did not believe that the individuals had access
to select agents because APHIS had not clearly defined what is meant by “access” to select
agents. The regulations state that an individual has access if the individual has possession of the
select agent or the “ability to gain possession” of a select agent. However, the term “ability to
gain possession” is not defined. Therefore, the entities in the first two cases believed that, as
long as select agents were not in use or stored in the registered area when unauthorized
individuals entered, it was acceptable to allow access. However, because select agents may be
brought into the registered space at any time, individuals with keycard access to these areas
could potentially have access to select agents.




18     AUDIT REPORT 33701-0001-AT
APHIS officials stated that their intent was that no unauthorized individuals should be allowed
into any area registered for select agent use—regardless of whether the select agents were
present or not—unless such access was granted for a specific purpose and documented in an
APHIS-approved security plan.

Generally, we found that registered entities are not always following their approved security
plans when permitting access to areas where select agents are used or stored, even though these
plans were appropriately designed to comply with regulations in prohibiting access to areas
where select agents were used and/or stored. To ensure that registered entities understand their
responsibilities, fully comply with access requirements, and adequately secure select agents,
APHIS should clarify its guidance. APHIS officials agreed that they could issue guidance to
clarify access requirements.

Recommendation 6
Provide guidance to registered entities that clarifies the restricted access requirements for select
agent registered space. Specifically, the guidance should (1) clearly define “access” and the
meaning of “ability to gain possession,” and (2) clarify whether access is prohibited to all areas
registered for select agent use, storage, and transfer, and include examples of appropriate and
inappropriate access control scenarios.

Agency Response
In its September 28, 2012, response APHIS stated:

       APHIS concurs with this recommendation. APHIS will clarify “access” and “ability to
       gain possession” in its security plan guidance document and escort policy guidance
       document. These documents will be revised by June 28, 2013.

OIG Position
We accept management decision for this recommendation.

Recommendation 7
Ensure that the company, which allowed the scientist who was not SRA approved, restricts
access to that individual or obtains appropriate approvals to allow that individual to have access
to select agent registered space.

Agency Response
In its September 28, 2012, response APHIS stated:

       Shortly after OIG advised us of this incident, APHIS sent an inspection team, that also
       included APHIS Investigative and Enforcement Services, to review the incident.



                                                          AUDIT REPORT 33701-0001-AT               19
       APHIS subsequently issued a letter of warning to the entity on February 3, 2012. The
       entity has assured APHIS in writing that the individual no longer has access to the
       registered space.

OIG Position
We are unable to accept management decision for this recommendation. In the recommendation
we ask that APHIS ensure that the entity has either restricted that individual’s access or obtained
approval to allow the individual to have access to the registered space. While we appreciate
APHIS’ actions in investigating the matter promptly, APHIS has not ensured that the individual
no longer has access to the registered space. To reach management decision, APHIS needs to
verify that the individual no longer has access to the registered space.

Recommendation 8
Require the company that allowed unapproved maintenance workers keycard access for select
agent areas to revise its security plan to reflect how it provides access to registered areas for
conducting maintenance activities.

Agency Response
In its September 28, 2012, response APHIS stated:

       APHIS does not concur with the recommendation. In Title 9 of the Code of Federal
       Regulations (CFR) section 121.11(c) and 7 CFR 331.11(c), the select agent regulations
       state that entities must specify in their security plan provisions for controlling access to
       select agents and toxins and provisions for routine cleaning, maintenance, and repairs. In
       the specific instance cited above, the entity had removed select agents from the registered
       area; therefore, the maintenance workers did not have access to select agents. The
       entity’s security plan properly identifies procedures for access and escort of non-SRA
       personnel in areas where there is the potential for access to select agents. Therefore,
       changes are not needed to the entity’s security plan.

OIG Position
We are unable to reach management decision for this recommendation. The regulations cited by
APHIS above are comprised of two distinct requirementsthe security plan must: (1) contain
procedures for the control of access to select agents and toxins and (2) contain provisions for
routine cleaning, maintenance, and repairs. We agree that the entity’s security plan included
both these elements. However, the entity was not conducting its cleaning, maintenance, and
repairs in accordance with its written security plan. Because operating in a manner that is
incongruent with its written security plan could give rise to additional security and safety risks,
the security plan should be revised to reflect how the entity actually conducts its maintenance,
cleaning, and repairs. This will allow APHIS to ensure that appropriate controls are in place to
ensure the security of the select agents and safety of those performing the cleaning, maintenance,



20     AUDIT REPORT 33701-0001-AT
and repairs. To reach management decision, APHIS needs to require the company in question to
revise its security plan to reflect how it performs it cleaning, maintenance, and repair activities.

Recommendation 9
Determine whether the company that sought permission to allow unescorted access by
unapproved maintenance workers continues to engage in the practice of allowing unescorted
access. If so, require the company to revise its security plan to include a provision to allow
unescorted maintenance workers and describe the types of additional security measures to be
implemented when unescorted persons are present.

Agency Response
In its September 28, 2012, response APHIS stated:

       APHIS does not concur with this Recommendation. Regulations in 9 CFR 121.11(c) and
       7 CFR 331.11(c) state that entities must specify in their security plan provisions for
       controlling access to select agents and toxins and provisions for routine cleaning,
       maintenance, and repairs. In the specific instance cited above, the entity had removed
       select agents from the registered area; therefore, the maintenance workers did not have
       access to select agents. The entity’s security plan properly identifies the procedures for
       access and escort of non-SRA personnel in areas where there is the potential for access to
       select agent regulations. Therefore, changes are not needed to the entity’s security plan.

OIG Position
We are unable to reach management decision for this recommendation. The regulations cited by
APHIS are comprised of two distinct requirements; the security plan must (1) contain procedures
for the control of access to select agents and toxins and (2) contain provisions for routine
cleaning, maintenance, and repairs. We agree that the entity’s security plan included both these
elements. However, the entity was not following the procedures in its written security plan. To
reach management decision, APHIS needs to determine whether the entity is now following its
written security plan. If not, the entity should be required to revise its security plan to reflect
actual procedures for cleaning, maintenance, and repairs.




                                                         AUDIT REPORT 33701-0001-AT               21
Finding 4: Persons with Access to Select Agents Did Not Possess Updated
SRAs
Four of the seven entities we reviewed allowed individuals with expired SRAs continued access
to select agents. Individuals identified by an entity as having a legitimate need to handle or use
select agents must undergo an SRA by CJIS and may not access select agents unless approved.
SRAs are valid for a maximum of 5 years.43 While Federal regulations place the ultimate
responsibility with the entity,44 we found entity officials were not tracking when individual SRAs
expired. Entity officials told us that they relied on APHIS to notify them that SRA renewals
were needed. An APHIS official stated that the agency only provided the notices as a courtesy
and expected entities to ensure that SRAs were timely renewed, even in the absence of
notification from APHIS. However, as we discuss in Finding 1, APHIS’ expectation of the
entities was unclear, in that APHIS’ procedures stated that it would notify the entity’s RO when
renewals were needed.

APHIS officials stated that the tracking process to identify expiring SRAs requires staff to
manually compare information from two separate systems to create the list of expiring SRAs.
Because this is a manual process, there is a higher risk of errors and omissions. In fact, we found
the notifications APHIS provided to the ROs were not always accurate or timely. We identified
a total of 11 SRA approvals that were not renewed or cancelled for time periods ranging from
14 to 478 days (see exhibit A for detail of lapses). We discovered this by obtaining the entities’
lists of persons approved for select agent access, and then reviewing the date when each person’s
SRA was set to expire. Once their SRA expired, 10 of these individuals continued to have
access to select agents for periods between 14 to 302 days before their SRA was successfully
renewed. The other person continued to have access from the time his approval expired until
19 days later when he retired. However, the RO at this entity did not notify APHIS of the access
termination until 478 days after the SRA had expired.

Because of the potential for a change in an individual’s classification to a restricted category
after being approved for access to select agents, an SRA must be renewed periodically to ensure
that a person can still safely possess, use, and transfer select agents.45 For instance, the SRA
process restricts access for an individual convicted in any court of a crime punishable by a prison
term exceeding 1 year, or an individual who has been committed to a mental institution. For the
period of our review, SRA approval was valid for a maximum of 5 years,46 after which the SRA
must be renewed.47 When an entity terminates a person’s access to select agents, the RO must
notify APHIS immediately and provide the reasons for termination.48 If SRAs are not renewed
in a timely manner and individuals continue to have access to select agents, it increases the risk
that the select agents could be intentionally misused or diverted for unauthorized purposes.
43
   7 CFR 331.10(g) and 9 CFR 121.10(g). Effective June 1, 2011, APHIS revised the maximum period of time for
which an SRA is valid to 3 years.
44
   7 CFR 331.10(a) and 7 CFR 331.9(a)(4); 9 CFR 121.10(a) and 9 CFR 121.9(a)(4); and 42 CFR 73.10(a) and
42 CFR 73.9(a)(4).
45
   Report of the Working Group on Strengthening the Biosecurity of the United States, dated October 1, 2009.
46
   Effective June 1, 2011, APHIS and CDC require that SRAs must be renewed every 3 years, instead of every
5 years.
47
   7 CFR 331.10(h), 9 CFR 121.10(i), and 42 CFR 73.10(i).
48
   7 CFR 331.10(i), 9 CFR 121.10(j), and 42 CFR 73.10(j).


22     AUDIT REPORT 33701-0001-AT
SRAs are a key security measure for the select agent program. APHIS must create a reliable list
to serve as the foundation of its SRA approval monitoring efforts. APHIS must also ensure that
ROs accurately track their employees’ SRA approvals and timely renew them before they expire.
We understand APHIS is now working to automate its list compilation process to ensure
accuracy, as well as more timely notification to the ROs.

Recommendation 10
Develop and implement policies and procedures for monitoring ROs to ensure the ROs are
seeking timely renewals or terminations of individuals’ SRAs.

Agency Response
In its September 28, 2012, response APHIS stated:

       APHIS does not concur with the recommendation. APHIS will analyze the discrepancies
       provided by OIG to determine the reasons for possible lapses in individual’s SRAs. If
       needed, we will develop processes to address these lapses. The analysis will be
       completed by December 3, 2012.

OIG Position
We are unable to accept management decision for this recommendation. Because APHIS is
responsible to ensure that entities are complying with program requirements, the agency needs to
monitor the ROs to ensure that they are renewing or terminating each individual’s SRA, as
appropriate. To reach management decision, APHIS needs to develop and implement policies
and procedures for monitoring ROs to ensure that the ROs are seeking timely reviews or
terminations of individuals’ SRAs.




                                                       AUDIT REPORT 33701-0001-AT             23
Finding 5: Responsible Officials and Employees Lacked Required Biosafety
and Security Training
Five of the seven entities’ ROs or alternate ROs did not have documentation of their required
biosafety or biocontainment and security training. ROs and alternate ROs serve as select agent
regulations experts in their respective entities, and often train their staff in safety and security
measures. Although APHIS requires all individuals with access to select agents, including the
RO and alternate RO, to have annual training on biosafety and security, APHIS did not require
ROs or alternate ROs to have specific training related to their select agent program oversight
responsibilities. The ROs and alternate ROs did not always comply with the select agent
regulations in the maintenance of required training documentation to evidence training provided.
Further, without appropriate training, ROs or alternate ROs could be providing incorrect or
incomplete information to their employees. Additionally, all seven entities either did not ensure
that all employees received the required annual training, or did not maintain complete training
records for their employees, including evidence that the employees understood the training
received. In 2 cases, entities did not provide training to all 58 individuals for 1 year. If training
is not routinely conducted or is not understood, individuals working with select agents could
develop critical knowledge gaps. These lapses in program training heighten the risk that
individuals could hurt themselves or damage public, plant, or animal health if they mishandle a
select agent or inadvertently cause a security breach.

Entities must provide biosafety or biocontainment and security training to each SRA-approved
person before he/she can gain access to select agents, and refresher training annually thereafter.49
Entities must also maintain records, including the date and description of the training, as well as
the means used to verify that the individual understood the training (such as a quiz or test).50
These records must be maintained for 3 years.51

Responsible Officials’ Training

At five of the seven entities we visited, the RO or alternate RO did not document that they
received or understood the required training in biosafety or biocontainment and security. They
stated that APHIS had not provided guidance as to how ROs and alternate ROs were to meet the
training requirements or how they were to document their training when they served as the
subject matter expert and provided the training to other staff. Further, we noted that APHIS has
not required any specific training for the ROs or alternate ROs to ensure that those responsible
for implementing and overseeing the select agent programs at the registered entities have the
knowledge necessary to effectively oversee the program. During our audit, we noted certain
issues, which highlighted the need for training specifically focused on ensuring that ROs and
alternate ROs are aware of select agent program requirements. For example, as we discussed in
Finding 3, not all ROs clearly understood that only individuals with an SRA approval may have
access to areas where select agents are used or stored. Additionally, as we discussed in
Finding 4, ROs were relying on APHIS to notify them when an individual’s SRA was due to
expire, instead of monitoring that themselves and ensuring timely renewals. Without appropriate
49
   7 CFR 331.15, 9 CFR 121.15, and 42 CFR 73.15.
50
   APHIS/CDC Guidance, Select Agents and Toxins, Security Information Document, March 8, 2007.
51
   7 CFR 331.17(c), 9 CFR 121.17(c), and 42 CFR 73.17(c).


24     AUDIT REPORT 33701-0001-AT
training, ROs could be providing incorrect or incomplete information to their employees, thus
heightening the risk to the health of persons, plants, or animals.

APHIS acknowledged that it has not issued specific training requirements for ROs. However, on
October 3, 2011, APHIS issued a proposed rule that will require ROs to possess appropriate
training or expertise to ensure that the entity they oversee meets the requirements of the
regulations. In addition, APHIS officials stated that, as a result of our concerns, they have
discussed developing training specifically for ROs to ensure that ROs are knowledgeable of
select agent program requirements, but, due to other priorities, they have yet to develop the
training.

Training Other Authorized Persons

All seven entities did not maintain complete training records for all approved individuals or
ensure that all individuals received the required training. For example, 2 entities did not provide
the required annual training to any of the 58 persons registered to work with select agents for
1 of the 3 years that we reviewed. For one of these cases, the RO stated that he did not know
why training was not provided because he was not the RO during that year. At the other, the RO
stated that, instead of providing formal training, the staff read the standard operating procedures;
however, this did not include a procedure to ensure that the person receiving the training
understood the training, which is part of the training requirements.

Generally, where entities did not have complete records to document the required training, it was
because they had not retained the required records. In one instance where the entity did not
maintain records for the 3-year period required by APHIS regulations, the RO stated that it was
because the entity’s computer system purged the training records after 12 months. At another
entity where they did not require all SRA-approved individuals to attend training, the RO said
that the three SRA-approved individuals that did not receive training did not routinely access
select agents, or were escorted when they were in the presence of select agents. However,
APHIS regulations require that all individuals, whether SRA-approved or not, receive training
prior to entering areas where select agents are used or stored.

Recommendation 11
Develop and conduct training for all ROs and alternate ROs that provides the information
necessary to effectively oversee the select agent program. The session should provide a method
of assessing that ROs and alternate ROs understood the training.

Agency Response
In its September 28, 2012, response APHIS stated:

       APHIS does not concur with this Recommendation. The FSAP held workshops on RO
       duties and responsibilities on November 16, 2011; May 10, 2011; June 15, 2010; August
       12, 2009; and December 9, 2008. We will hold another workshop for ROs on November
       16, 2012. A training requirement for ROs and alternate ROs was included in the


                                                         AUDIT REPORT 33701-0001-AT               25
       proposed rule published in December 2011, titled “Agricultural Bioterrorism Protection
       Act of 2002; Biennial Review and Republication of the Select Agent and Toxin List;
       Amendments to the Select Agent and Toxin Regulations.” The public comments we
       received did not support such a requirement. However, FSAP will develop a guidance
       document that describes RO responsibilities; this will be completed by December 3,
       2012.

OIG Position
We are unable to reach management decision for this recommendation. Although the workshops
for ROs are beneficial, as would be a guidance document, they do not provide the same level of
assurance that the ROs and alternate ROs are adequately knowledgeable of select agent
regulations as would specific training, especially when the training is accompanied by a method
for assessing that the ROs and alternate ROs understood the training. We reviewed the 65 public
comments related to the proposed rule on Regulations.gov and found that 2 of the 65 comments
favored “mandatory” periodic training of personnel working with and responsible for biosafety
and biosecurity. To reach management decision, APHIS should develop and conduct training for
all ROs and alternate ROs to provide the information necessary to effectively oversee the select
agent program. This training should include a method of assessing the ROs and alternate ROs
understanding of the training.

Recommendation 12
Provide guidance to each RO re-emphasizing the requirement that biosafety and security training
must be provided to and documented for all authorized individuals with access to select agents.
The guidance should state that documentation of the training must include the name of the
attendee, a description of the training, date of the training, and the means used to verify that the
employee understood the training. The guidance should also state that these records must be
maintained for 3 years.

Agency Response
In its September 28, 2012, response APHIS stated:

       APHIS does not concur with this Recommendation. The current regulations in 9 CFR
       121.15(c) and 7 CFR 331.15(c) already require that documentation of the training include
       the name of the attendee, a description of the training, date of the training, and the means
       used to verify that the employee understood the training. The 3-year records retention is
       also a requirement in 9 CFR 121.17(c) and 7 CFR 331.17(c). We will re-emphasize the
       training requirements in the RO guidance document that will be finalized by December 3,
       2012. (This guidance document is the same document mentioned in Recommendations 4
       and 11.) These requirements will also be specified in the security guidance document
       that will be developed by December 3, 2012.




26     AUDIT REPORT 33701-0001-AT
OIG Position
Although APHIS does not agree with this recommendation, its proposed corrective action to re-
emphasize the training requirements in the RO guidance document is sufficient to reach
management decision. We accept management decision for this recommendation.




                                                      AUDIT REPORT 33701-0001-AT            27
Scope and Methodology
This is our follow up audit to Phases I and II of APHIS’ implementation of the select agent
program to determine whether APHIS’ new controls are effectively ensuring that registered
entities are complying with governing regulations.52 We examined registered entities’
compliance with the select agent regulations and assessed APHIS’ oversight of the entities from
March 2010 through January 2012.

We conducted fieldwork at APHIS Headquarters in Riverdale, Maryland, and at seven
judgmentally selected registered entities,53 reviewing program operations from calendar year
2007 through January 2012. We judgmentally selected 7 entities from the universe of
59 registered entities54 that were registered as of May 2010 for review, based on knowledge from
previous audits, the types of select agents possessed by entities, geographic considerations, and
entity type (e.g., commercial, non-profit, etc.). We used a judgmental sample so that we could
review entities with a variety of select agents and security measures. Our sample of seven
consisted of one academic institution, two commercial entities, two Federal entities, one State
entity, and one privately-held entity. Because we did not use a statistical sample, we cannot
project our results to the universe of registered entities.

To accomplish our audit objectives, we performed the following steps at APHIS headquarters:

     ·   Reviewed corrective actions implemented as a result of our prior audits.
     ·   Interviewed APHIS officials from both Veterinary Services and PPQ to determine what
         roles Veterinary Services and PPQ have in the select agent program.
     ·   Interviewed personnel from APHIS’ Investigative and Enforcement Services to
         determine what role Investigative and Enforcement Services has in the select agent
         program.
     ·   Interviewed APHIS officials to determine agency procedures for coordinating with the
         CDC for activities, such as entity registration and certification, inspection, and
         enforcement activities.
     ·   Interviewed APHIS officials to determine registration, renewal, and amendment policies;
         inspection types; transfer policies; and theft, loss, and release policies.



52
   APHIS Evaluation of the Implementation of the Select Agent or Toxin Regulations, Phase I (33601-0002-AT,
June 23, 2005) and APHIS Evaluation of the Implementation of the Select Agent or Toxin Regulations, Phase II
(33601-0003-AT, January 17, 2006).
53
   Our sample included 10 judgmentally selected entities, but due to budget constraints, 3 of the selected entities
were eliminated from the review.
54
   The 59 registered entities consisted of 8 Federal governmental entities, 7 State governmental entities, 21 academic
institutions, 21 commercial entities, and 2 private entities. As of May 2012, the number of registered entities had
declined to 50 because some entities withdrew from the Select Agent Program, while others are now registered
under CDC’s Select Agent Program, due to a change in the select agents they process.


28       AUDIT REPORT 33701-0001-AT
   ·   Examined registration files and security, biocontainment, biosafety, and incident response
       plans for the seven selected entities.

At the seven selected entities, we performed the following steps:

   ·   Interviewed the ROs and alternate ROs to gain an understanding of each entity’s
       implementation of select agent program regulations, as well as compliance with the
       regulations.
   ·   Evaluated security, biocontainment, biosafety, and incident response plans. We
       examined each plan to ensure it included procedures for inventory control; physical
       security; personnel security and suitability; accountability for select agents; security
       training; transfer of select agents; response to emergencies; and reporting incidents,
       injuries, and breaches.
   ·   Evaluated the entities’ policies and procedures for restricting access to select agents,
       inventory control, transferring select agents, and notifying APHIS in the event of a theft,
       loss, or release.
   ·   Evaluated physical security measures in place for each laboratory where select agents
       were stored and/or used.
   ·   Assessed the accuracy, adequacy, and completeness of the records required by each RO
       including:
           o   security, biocontainment/biosafety, and incident response plans;
           o   site-specific risk assessments;
           o   training records;
           o   authorized individuals;
           o   security records (e.g., transactions from access control systems, visitor logs, etc.);
           o   inventory records (including select agent source and characteristic data); and
           o   transfer documents issued by APHIS or CDC.

We conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our audit findings and conclusions based on our audit
objectives. We believe that the evidence we obtained provide a reasonable basis for our findings
and conclusions based on our audit objectives.




                                                         AUDIT REPORT 33701-0001-AT                29
Exhibit A: Summary of SRA Renewal Deficiencies
Exhibit A identifies the number of days that elapsed between the date that the individual’s SRA
expired and the date that the individual’s SRA was renewed, or the date that the individual’s
name was submitted to APHIS to be removed from the list of approved users of select agents.
The first column identifies the entity at which this was observed; the second column identifies
the employee sample number; the third column provides the date the SRA expired; the fourth
column identifies the date the individual’s SRA was renewed and/or was removed from the list
of authorized users of select agents; and the fifth and final column identifies the number of days
that elapsed between the SRA expiration and SRA renewal (or removal from list of authorized
users).

                 Individual with      SRA Expiration          Approval (A)/              Days
     Entity
                  Expired SRA              Date              Removal (R) Date           Lapsed
     Entity 1      Employee 1           03/22/2010            08/20/2010 (A)             151
     Entity 1      Employee 7           06/22/2010            09/20/2010 (A)             110
     Entity 1     Employee 26           11/02/2010            11/16/2010 (A)              14
     Entity 1     Employee 29           12/17/2009            08/20/2010 (A)             246
     Entity 3      Employee 8           05/12/2010            09/22/2010 (A)             133
     Entity 3     Employee 68           05/11/2010            09/23/2010 (A)             135
     Entity 4      Employee 5           03/29/2011            04/13/2011 (A)              15
     Entity 5      Employee 1           12/15/2008            04/07/2010 (R)             478
     Entity 5      Employee 3           12/16/2008            10/01/2009 (A)             289
     Entity 5      Employee 5           12/08/2008            09/18/2009 (A)             284
     Entity 5     Employee 19           03/08/2009            01/04/2010 (A)             302

Note: Employee 1 of entity 5 was shown as an authorized user from the time his approval
expired, until entity 5 requested that he be removed from the APHIS list of authorized users.
Officials of the entity stated that the employee retired January 3, 2009, 19 days after his approval
expired. However, the entity did not request APHIS to remove the individual from the list of
authorized users until April 7, 2010.


.




30      AUDIT REPORT 33701-0001-AT
Abbreviations
APHIS ......................... Animal and Plant Health Inspection Service
BSE ............................. Bovine Spongiform Encephalopathy
CDC ............................ Centers for Disease Control and Prevention
CFR ............................. Code of Federal Regulations
CJIS ............................. Criminal Justice Information Service
FESAP......................... Federal Experts Security Advisory Panel
HHS............................. Health and Human Services
NSAR .......................... National Select Agent Registry
PPQ ............................. Plant Protection and Quarantine
RO ............................... Responsible Official
SRA ............................. Security Risk Assessment
USDA.......................... Department of Agriculture




                                                              AUDIT REPORT 33701-0001-AT   31
32   AUDIT REPORT 33701-0001-AT
Agency’s Response




                  USDA’S
         ANIMAL AND PLANT HEALTH
           INSPECTION SERVICE’S
         RESPONSE TO AUDIT REPORT




                       AUDIT REPORT 33701-0001-AT   33
United States
Department of
                         MEMORANDUM
Agriculture

Animal and Plant
                         TO:                Gil H. Harden                            September 28, 2012
Health Inspection                           Assistant Inspector General
Service
                                            For Audit
Washington, DC
20250
                         FROM:              Kevin Shea /s/
                                            Acting Administrator

                         SUBJECT: Animal and Plant Health Inspection Service’s Response
                                  and Request for Management Decisions on the Office
                                  of Inspector General (OIG) Report, “Follow-Up on
                                  on Animal and Plant Health Inspection Service’s
                                  Implementation of the Select Agent or Toxin Regulations”
                                  (33701-01-AT)

                         Thank you for the opportunity for the Animal and Plant Health Inspection Service
                         (APHIS) to comment on this report.

                         APHIS is committed to protecting the health of animals and plants and their
                         products through the effective management and implementation of the select agent
                         and toxin regulations. In its report, OIG stated that its findings resulted in
                         “potentially dangerous violations going undetected” or “jeopardizing the health of
                         persons, plants or animals.” We believe none of the findings uncovered dangerous
                         violations that jeopardized the health of persons, plants, or animals. We believe
                         that such language is unduly alarming and suggest that it should be revised or
                         removed from the audit report.

                         We have addressed each Recommendation. In the majority of the
                         Recommendations, we already have polices and/or procedures in effect that address
                         the Recommendations. In other instances, we have included our planned corrective
                         actions and the timeframes for implementing these actions.

                         Recommendation 1

                         Revise inspection procedures to include steps for sampling and reviewing
                         access logs, access privileges, and electronic entry records (if available) to
                         ensure entities are adhering to restricted access requirements, including log
                         book documentation requirements.

                         APHIS Response: APHIS does not concur with this Recommendation. APHIS’
                         current inspection procedures include sampling and reviewing access logs, access
                         privileges, and electronic entry records during renewal inspections as well as annual

                    Safeguarding American Agriculture
                                                                                                   Federal Relay Service
                    APHIS is an agency of USDA’s Marketing and Regulatory Programs                 (Voice/TTY/ASCII/Spanish)
                    An Equal Opportunity Provider and Employer                                     1-800-877-8339
compliance reviews. Select agent inspector training provided by APHIS
specifically addresses the process to examine records and to compare those
examinations with the list of authorized personnel. However, APHIS will review
the inspection checklists to determine if more specificity is necessary. This review
will be completed by December 3, 2012.

Recommendation 2

Revise the checklists and guidance used by inspectors to include (1) steps to
identify evidence of required training, including what documents are needed to
verify an individual’s understanding of the training, and (2) the scope of an
inspector’s training documentation review to identify the period of time for
which training records were reviewed.

APHIS Response: APHIS does not concur with this Recommendation. Select
agent inspector training provided by APHIS specifically addresses the process to
examine the entity’s records to ensure that the training requirements are fulfilled.
APHIS inspectors review training records typically from the date of the last
inspection forward by both APHIS and Centers for Disease Control and Prevention
(CDC) on-site inspectors. APHIS will review the inspection checklists to determine
if more specificity is necessary. This review will be completed by December 3,
2012.

Recommendation 3

Develop and implement procedures to ensure that all affected parties receive
communication of relevant information regarding significant decisions, such as
the approval of a transfer of a select agent, before such determinations are
made.

APHIS Response: APHIS does not concur with this Recommendation. APHIS
has a Standard Operating Procedure for transfers, titled “Procedure for Processing
Request to Transfer Select Agents and Toxins, APHIS/CDC Form 2,” which was
approved January 16, 2011. This document addresses how requests for transfers are
communicated within APHIS and CDC. Part of the transfer process includes
reviewing whether APHIS movement permits are valid for the recipient and sender
of the select agent. If the transfer includes a CDC-only select agent or toxin, CDC
must approve the request. In the transfer case cited in the OIG report, all
procedures were followed correctly.

Recommendation 4

Notify each registered entity to clarify that its RO must ensure that SRA
renewals are done timely and not allowed to expire.

APHIS Response: APHIS does not concur with this Recommendation. APHIS
notifies the Responsible Official (RO) of the security risk assessment (SRA)
expiration dates as a courtesy, and it is the ROs’ responsibility to ensure that SRAs
                                          2
are renewed on time. However, the Federal Select Agent Program (FSAP) will
develop a guidance document for ROs which will remind ROs that it is their
responsibility to see that employee SRAs are renewed in a timely fashion. This
document will be completed by December 3, 2012.

Recommendation 5

Establish policies and procedures for handling requests from registered
entities to transfer select agents, under special circumstances, such as when an
entity must relocate, to facilities that are not registered with the select agent
program.

APHIS Response: APHIS concurs with this Recommendation. The FSAP will
develop a section of the registration form for entities to register for storage only.
FSAP will also develop guidance for inspectors and entities on the requirements for
such facilities. These actions will be completed and implemented by September 30,
2013.

Recommendation 6

Provide guidance to registered entities that clarifies the restricted access
requirements for select agent registered space. Specifically, the guidance
should (1) clearly define “access” and the meaning of “ability to gain
possession” and (2) clarify whether access is prohibited to all areas registered
for select agent use, storage, and transfer, and include examples of appropriate
and inappropriate access control scenarios.

APHIS Response: APHIS concurs with this Recommendation. APHIS will clarify
“access” and “ability to gain possession” in its security plan guidance document and
escort policy guidance document. These documents will be revised by June 28,
2013.

Recommendation 7

Ensure that the company that allowed the scientist who was not SRA
approved, restricts access to that individual or obtains appropriate approvals
to allow that individual to have access to select agent registered space.

APHIS Response: Shortly after OIG advised us of this incident, APHIS sent an
inspection team, that also included APHIS Investigative and Enforcement Services,
to review the incident. APHIS subsequently issued a letter of warning to the entity
on February 3, 2012. The entity has assured APHIS in writing that the individual
no longer has access to the registered space.




                                          3
Recommendation 8

Require the company that allowed unapproved maintenance workers keycard
access for select agent areas to revise its security plan to reflect how it provides
access to registered areas for conducting maintenance activities.

APHIS Response: APHIS does not concur with this Recommendation. In Title 9
of the Code of Federal Regulations (CFR) section 121.11(c) and 7 CFR 331.11(c),
the select agent regulations state that entities must specify in their security plan
provisions for controlling access to select agents and toxins and provisions for
routine cleaning, maintenance, and repairs. In the specific instance cited above, the
entity had removed select agents from the registered area; therefore, the
maintenance workers did not have access to select agents. The entity’s security
plan properly identifies the procedures for access and escort of non-SRA personnel
in areas where there is the potential for access to select agent regulations.
Therefore, changes are not needed to the entity’s security plan.

Recommendation 9

Determine whether the company that sought permission to allow unescorted
access by unapproved maintenance workers continues to engage in the practice
of allowing unescorted access. If so, require the company to revise its security
plan to include a provision to allow unescorted maintenance workers and
describe the types of additional security measures to be implemented when
unescorted persons are present.

APHIS Response: APHIS does not concur with this Recommendation.
Regulations in 9 CFR 121.11(c) and 7 CFR 331.11(c) state that entities must
specify in their security plan provisions for controlling access to select agents and
toxins and provisions for routine cleaning, maintenance, and repairs. In the specific
instance cited above, the entity had removed select agents from the registered area;
therefore, the maintenance workers did not have access to select agents. The
entity’s security plan properly identifies the procedures for access and escort of
non-SRA personnel in areas where there is the potential for access to select agent
regulations. Therefore, changes are not needed to the entity’s security plan.

Recommendation 10

Develop and implement policies and procedures for monitoring ROs to ensure
the ROs are seeking timely renewals or terminations of individuals’ SRAs.

APHIS Response: APHIS does not concur with the Recommendation. APHIS will
analyze the discrepancies provided by OIG to determine the reasons for possible
lapses in individuals’ SRAs. If needed, we will develop processes to address these
lapses. The analysis will be completed by December 3, 2012.




                                          4
Recommendation 11

Develop and conduct training for all ROs and alternate ROs that provides the
information necessary to effectively oversee the select agent program. The
session should provide a method of assessing that ROs and alternate ROs
understood the training.

APHIS Response: APHIS does not concur with this Recommendation. The FSAP
held workshops on RO duties and responsibilities on November 16, 2011; May 10,
2011; June 15, 2010; August 12, 2009; and December 9, 2008. We will hold
another workshop for ROs on November 16, 2012. A training requirement for ROs
and alternate ROs was included in the proposed rule published in December 2011,
titled “Agricultural Bioterrorism Protection Act of 2002; Biennial Review and
Republication of the Select Agent and Toxin List; Amendments to the
Select Agent and Toxin Regulations.” The public comments we received did not
support such a requirement. However, FSAP will develop guidance document that
describes RO responsibilities; this will be completed by December 3, 2012.

Recommendation 12

Provide guidance to each RO re-emphasizing the requirement that biosafety
and security training must be provided to and documented for all authorized
individuals with access to select agents. The guidance should state that
documentation of the training must include the name of the attendee, a
description of the training, date of the training, and the means used to verify
that the employee understood the training. The guidance should also state that
these records must be maintained for 3 years.

APHIS Response: APHIS does not concur with this Recommendation. The
current regulations in 9 CFR 121.15(c) and 7 CFR 331.15(c) already require that
documentation of the training include the name of the attendee, a description of the
training, date of the training, and the means used to verify that the employee
understood the training. The 3-year records retention is also a requirement in 9
CFR 121.17(c) and 7 CFR 331.17(c). We will re-emphasize the training
requirements in the RO guidance document that will be finalized by December 3,
2012. (This guidance document is the same document mentioned in
Recommendations 4 and 11.) These requirements will also be specified in the
security guidance document that will be developed by December 3, 2012.




                                         5
Informational copies of this report have been distributed to:

Acting Administrator, Animal and Plant Health Inspection Service
Government Accountability Office
Office of Management and Budget
Office of the Chief Financial Officer
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm

How To Report Suspected Wrongdoing in USDA Programs
Fraud, Waste, and Abuse
Email: usda.hotline@oig.usda.gov
Phone: 800-424-9121 Fax: 202-690-2474
Bribes or Gratuities:
202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual’s income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
